Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 1 of 30 PagelD #: 74
Watts v. State, 733 So.2d 214 (1999)

testing of deoxyribonucleic acid (DNA) was
sufficiently reliable to be admitted in homicide
case, although defendant claimed that there had
been possibility of contamination, in light of
testimony regarding controls in laboratory
process designed to identify and minimize
instances of contamination.

[ KeyCite Yellow Flag - Negative Treatment
Overruling Recognized by Baskin v. State, Miss.App,, September 9,
2008

733 So.2d 214
Supreme Court of Mississippi.
James Earnest WATTS a/k/a “Squirrel”
v.
STATE of Mississippi.

3 Cases that cite this headnote

No. 96-DP-01030-SCT
Jan. 28,1999.

[2]

Rehearing Denied May 6,1999.

Synopsis
Defendant was convicted in the Circuit Court, Marion
County, R.I. Pritchard, III, J., of capital murder and was
sentenced to death. Defendant appealed. The Supreme
Court, McRae, J., held that: (1) evidence of polymerase
chain reaction (PCR) testing of deoxyribonucleic acid
(DNA) was reliable; (2) evidence supported conviction
for murder while in commission of sexual battery; (3)
new trial was not warranted on Batson issue, which was
waived by defendant; (4) defendant’s right to speedy trial
was not violated despite delay of 959 days; (5) failure to
instruct jury regarding third sentencing option of life
imprisonment without the possibility of parole required
resentencing; and (6) allowing jurors to disperse briefly to
pack, after they were sworn in but before introduction of
any evidence, did not warrant reversal.

Criminal Law8—Particular tests or experiments
State could introduce deoxyribonucleic acid
(DNA) polymerase chain reaction (PCR)
evidence regarding stains found on inside of
murder
undershorts,
which
defendant’s
contained mixture of DNA evidence consistent
both with his genetic profile and that of victim,
even though statistical data was introduced
about DNA evidence on defendant’s jacket and
no corresponding statistical data on mixed
sample found on underwear, given that
population statistics or lack thereof went to
credibility of DNA matching evidence.
5 Cases that cite this headnote

[3]

Conviction affirmed, sentence reversed and remanded.

Criminal Law&~ParticuIar tests or experiments
Trial court should allow introduction when
population frequency statistics are offered in
conjunction with evidence of a deoxyribonucleic
acid (DNA) match made on the basis of either
polymerase chain reaction (PCR) or restriction
fragment length polymorphism (RFLP) analysis.

Banks, J., filed a concurring opinion in which Sullivan
and Pittman, P.JJ., and Waller, J., joined.
Smith, J., filed a dissenting opinion in which James L.
Roberts, Jr., J., joined.

4 Cases that cite this headnote
West Headnotes (38)
[4]
[1]

Criminal Lawfr-Foundation or authentication
in general

Criminal Law^Experiments and results
thereof
State’s expert could use prodtRrrralc-ttrc'atculaTe'

Evidence of polymerase chain reaction (PCR)
WESTLAW

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

1

\

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 2 of 30 PagelD #: 75

Watts v. State, 733 So.2d 214 (1999)

population frequency statistics based on
polymerase chain reaction (PCR) testing of
deoxyribonucleic acid (DNA), as product rule
had been established as a generally accepted
technique in the scientific community.

evidence regarding deoxyribonucleic acid
(DNA) testing based on product rule frequency
calculations, rather than ceiling principle used in
expert’s report, was procedurally barred on
appeal, where defendant did not object at trial
and cross-examined expert extensively about
results obtained by using the two different
statistical approaches.

7 Cases that cite this headnote

4 Cases that cite this headnote
[5]

Criminal Law^-Particular statements,
arguments, and comments
Failure to object to prosecution’s closing
arguments,
allegedly
mischaracterizing
testimony of statistical expert and misleading
jury as to significance of deoxyribonucleic acid
(DNA) evidence, barred consideration of issue
on appeal.

[8]

Prosecution did not improperly question
defendant’s deoxyribonucleic acid (DNA)
expert about his failure to run tests on the same
evidence tested by state’s laboratory, where
defense on re-direct did not pursue issue, and it
was defendant’s expert who pointed out that his
was not an unbiased laboratory for re-testing
evidence but that there were some good
laboratories that could and should have been
utilized.

1 Cases that cite this headnote

[6]

Criminal Law#~Foundation or authentication
in general
Criminal Law^-Immaterial or incompetent
evidence in general
Defendant was not prejudiced by lack of
proficiency test data from laboratory that
performed tests on deoxyribonucleic acid
(DNA) evidence, although better practice would
have been for state and laboratory to have turned
over data, as such evidence went to credibility,
defendant did not raise objection at trial or seek
continuance to procure data, and defendant’s
expert witness used absence of data to his
benefit to discredit reliability of laboratory’s
testing procedures as well as expert’s analysis of
evidence.

Criminal Law#“Cross-examination and
redirect examination

1 Cases that cite this headnote

[9]

Criminal Law^-Other offenses and character
of accused
Criminal Law#—Opinion evidence
Murder defendant’s failure to object at trial to
testimony regarding victim’s father’s belief that
defendant should be questioned and to testimony
from witness that defendant had purchased
drugs barred review of issues on appeal.

1 Cases that cite this headnote
[10]
[7]

Criminal Law*“Opinion evidence
-Defendant-s—claim—that—prosecution—failed—to
advise him that expert would present statistical

WESTLAW

Criminal Law^-Conclusiveness of Verdict
Any review by Supreme Court of the sufficiency
of the evidence upon which the defendant was
1 convicted-!s^made“in“deference to the verdict

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

2

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 3 of 30 PagelD #: 76

Watts v. State, 733 So.2d 214 (1999)

returned by the jury.
[14]

[11]

Issue of whether trial court improperly assisted
prosecution in presentation of its case was
procedurally barred by defendant’s failure to
raise contemporaneous objections to comments
assigned as error.

Criminal Law®-Construction of Evidence
Criminal Law?—Inferences or deductions from
evidence
In reviewing the sufficiency of evidence in
capital cases, court looks at all of the evidence
in a light most favorable to the verdict, giving
the prosecution the benefit of all favorable
inferences that may be drawn therefrom.

4 Cases that cite this headnote

[15]

[12]

[13]

3 Cases that cite this headnote

[16]

Criminal Law?—Particular statements,
arguments, and comments
Criminal Law?—Proceedings at trial in general
Issue of alleged prosecutorial misconduct,
arising from comments made during closing
arguments of guilt and sentencing phases of
capital murder trial, was procedurally barred by
defendant’s failure to object to comments at trial
and failure to raise issue of prosecutorial
misconduct in motion for a new trial.

Criminal Law?—Necessity of objections at trial
New trial was not warranted on Batson issue, as
it was waived by defendant, even if prosecution
and defense engaged in race-based and
gender-based jury selection.
1 Cases that cite this headnote

Searches and Seizures?—Knowledge of rights;
warnings and advice
Collection of clothing worn by defendant at time
of arrest was not the result of an illegal search or
seizure, where police had sufficient grounds for
questioning and detaining defendant, and he had
been advised of his rights, consulted with an
attorney, and twice given his consent before
turning his clothing over to the authorities.

Homicide1?—Predicate offenses or conduct
Homicide?—Miscellaneous particular
circumstances
Evidence supported conviction for murder while
commission
of
sexual
battery;
in
deoxyribonucleic acid (DNA) present in
bloodstain on defendant’s jacket matched that of
victim, there was evidence that defendant had
not worn jacket before night victim disappeared,
DNA samples on inside of defendant’s
undershorts matched defendant and victim, and
state medical examiner testified that victim
sustained severe bruising ^in perineal area and
tear in vaginal wall, f Code 1972, §§
97-3-19(2)(e), I'197-3-95(1 )(c).

Criminal LawORemarks and Conduct of
Judge

9 Cases that cite this headnote

[17]

Criminal Law?-Opinion evidence
Criminal Law^“Admission of evidence
Objections to testimony by county coroner, that

WESTLAW

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

3

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 4 of 30 PagelD #: 77

Watts v. State, 733 So.2d 214 (1999)

marks appeared to be ligature marks, that victim
appeared to have been sexually abused, that
there was no way to tell whether alleged
strangulation or air embolism came first, and
that sexual assault could have come after
victim’s death, were procedurally barred, where
defendant failed to raise objection at trial, and
some of the testimony was in response to
question posed on cross-examination by
defense.

are always inadmissible as evidence.

[21]

When considering admissibility of photographs,
court must consider (1) whether the proof is
absolute or in doubt as to identity of the guilty
party, and (2) whether the photographs are
necessary evidence or simply a ploy on the part
of the prosecutor to arouse the passion and
prejudice of the jury. Rules ofEvid., Rule 403.

2 Cases that cite this headnote

[18]

Criminal LawO-Depiction of Injuries or Dead
Bodies
Photographs of murder victim, including
autopsy pictures, were admissible even though
some were enlarged, as all had significant
evidentiary value, photographs were not
gruesome or inflammatory, and photographs
were not overdramatized by enlargement since
without enlargement much of the relevant detail
would not be easily discernible.

[22]

Criminal Law^-Photographs and Other
Pictures
Criminal LawO"Documentary evidence
Admissibility of photographs rests within the
sound discretion of the trial judge, whose
decision will be upheld absent abuse of that
discretion.
1 Cases that cite this headnote

[20[

Criminal Law<h*Delay caused by accused
Criminal LawO-Demand for trial
Criminal Law^-Subsequent to arrest
Criminal LawO-Prejudice or absence of
prejudice
Defendant’s right to speedy trial was not
violated despite delay of 959 days between time
he was taken into custody and date of trial,
given that delays were not attributable to the
state but to defendant’s first three motions for
continuances, that defendant made no effort to
assert his speedy trial rights prior to trial, and
that he had not alleged any prejudice. U.S.C.A.
Const.Amend. 6; Const. Art. 3, § 26.

1 Cases that cite this headnote

[19]

Criminal LawO-Photographs and Other
Pictures

7 Cases that cite this headnote

[23]

Criminal LawS-Accrual of right to time
restraints

Criminal LawO-Photographs arousing passion
or prejudice; gruesomeness

Constitutional right to a speedy trial attaches at
the time a person is effectively accused of a
crime. U.S.C.A. Const.Amend. 6; Const. Art. 3,
§26.

Photographs which are gruesome or
■inflamm atory -and-lack-an - eviden tiary-purpose ■

i-€

WESTLAW

that'cite this'hendnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

4

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 5 of 30 PagelD #: 78

Watts v. State, 733 So.2d 214 (1999)

Criminal Law<®=*lnstructions

[24]

Defendant’s assignments
of error that
instructions to the jury during both the guilt and
sentencing phases
of his
trial
were
constitutionally deficient were procedurally
barred, where defendant failed to object to the
complained of instructions at trial or even raise
them in his motion for a new trial and failed to
cite any authority or provide any meaningful
argument in support of most objections.

Criminal Law®—In general; balancing test
Criminal Law®—Time for trial
Alleged violation of right to speedy trial is
subject to scrutiny under the four-prong Barker
analysis involving (1) length of delay, (2) reason
for delay, (3) defendant’s assertion of his right
to a speedy trial, and (4) prejudice to defendant
by delay; no single factor is dispositive, but
rather, Supreme Court looks at totality of
circumstances
in
determining
whether
defendant’s rights have been violated. U.S.C.A.
Const.Amend. 6; Const. Art. 3, § 26.

2 Cases that cite this headnote

[28]
15 Cases that cite this headnote

[25]

Criminal Law®--Presumptions and burden of
proof

Despite procedural bar, failure to instruct jury of
third sentencing option besides life in prison or
the death penalty, that of life imprisonment
without the possibility of parole, required
resentencing, although crime was committed
before statute allowing life imprisonment with
parole was enacted, as trial was held after
effective date of statute. ! % Code 1972, §§

When length of delay is presumptively
prejudicial for purposes of speedy trial claim,
burden shifts to prosecutor to produce evidence
justifying delay and to persuade trier of fact of
legitimacy of reasons. U.S.C.A. Const.Amend.
6; Const. Art. 3, § 26.

97-3-21,

2 Cases that cite this headnote

[26]

Sentencing and Punishment®—Effect of
amendment or other modification
Sentencing and Punishment®—Validity of
particular retroactive applications
Sentencing and Punishment®—Instructions

99-19-101.

1 Cases that cite this headnote

Criminal Law®-Successive, amended, or
reinstated charges; successive trials
Where a mistrial has been declared, the Barker
factors are utilized to determine whether the
discretionary time between trials violated the
defendant’s right to a speedy trial. U.S.C.A.
Const.Amend. 6; Const. Art. 3, § 26.

[29]

Sentencing and Punishment®—Vileness,
heinousness, or atrocity
Aggravated circumstance of an especially
heinous, atrocious or cruel capital offense is one
accompanied by such additional acts as to set
the crime apart from the norm of murders, the
conscienceless or pitiless crime which is
unnecessarily torturous to the victim.

1 Cases that cite this headnote

[27]

Criminal Law®“Particular Instructions

WESTLAW

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

5

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 6 of 30 PagelD #: 79

Watts v. State, 733 So.2d 214 (1999)

[30]

In punishment phase of capital murder trial,
procedure jury has to follow is not a mere
counting process of a certain number of
aggravating circumstances versus the number of
mitigating circumstances, but rather, jurors have
to apply reasoned judgment as to whether
situation calls for life imprisonment or whether
it requires the imposition of death, in light of the
totality of the circumstances present.

[31]

same as those set out for manslaughter at time of
crime. U.S.C.A. Const.Amends. 5, 8, 14; Const.
Code 1972, §§
Art. 3, §§ 14, 26, 28;
97-3-19(2)(e), 97-3-27.

Sentencing and Punishment#»Manner and
effect of weighing or considering factors

r»

[34]

Separate instruction regarding presumption of
no aggravating circumstances was not required,
where jury was properly instructed that it could
consider only those aggravating factors
presented by the court which it found to exist
beyond a reasonable doubt.

Sentencing and PunishmenM^Instructions
In punishment phase of capital murder trial, jury
should consider and weigh any mitigating
circumstances as set forth in instructions, but
jury should be cautioned not to be swayed by
mere sentiment, conjecture, sympathy, passion,
prejudice, public opinion or public feeling.

Sentencing and Punishment#-Instructions

2 Cases that cite this headnote

[35]

Sentencing and Punishment#-Instructions
Defendant was not entitled to sentencing
instruction on presumption of life imprisonment
in penalty phase of capital murder prosecution.

2 Cases that cite this headnote

5 Cases that cite this headnote
[32]

Sentencing and Punishment-Instructions
Jury instruction in penalty phase of capital
murder trial that “any matter, any other aspect of
the defendant’s character or record, and any
other circumstance ... which you, the Jury deem
to be mitigating on behalf of the defendant” did
not foreclose jury from considering any and all
mitigating factors, including non-statutory
mitigating circumstances.

[36]

Sentencing and Punishment#»Instructions
Defendant was not entitled to a mercy
instruction in penalty phase of capital murder
trial. U.S.C.A. Const.Amends. 8, 14.
32 Cases that cite this headnote

1 Cases that cite this headnote

[37]
]33]

Homicide#-Validity
Sentencing and Punishment#»Murder
Defendant’s constitutional rights were not
■violated-i
'f5r capital murdCI7
although elements for capital murder were the

WESTLAW

Sentencing and Punishment#-Dual use of
evidence or aggravating factor
Defendant could be sentenced to death based on
finding that defendant actually killed victim, and
that defendant attempted to kill, intended to kill,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

6

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 7 of 30 PagelD #: 80

Watts v. State, 733 So.2d 214 (1999)

or contemplated use of lethal force. F* Code
1972, §99-19-101(7).
1 Cases that cite this headnote

[38]

reverse as to the sentencing phase. There is no merit to the
remaining issues raised. Accordingly, we affirm the jury’s
finding that Watts was guilty of capital murder and
reverse and remand for re-sentencing proceedings,
consistent with this opinion.

Criminal Law#-Separation pending
proceedings
Criminal Law^-Separation ofjury
Allowing jurors, with consent of both parties, to
go home and quickly pack their bags after they
were sworn in but before they were sequestered
and before introduction of any evidence in
capital murder trial did not warrant reversal for
new trial, where jurors were advised that both
sides had agreed that they could have a few
minutes to pack and consent was obtained by
both parties outside of presence of jury,
although better practice would have been for
trial court to advise venire members the night
before final jury selection and swearing in to
come to court with packed suitcases.

f Uniform

Circuit and County Court Rules

10.02.
3 Cases that cite this headnote

Attorneys and Law Firms
*218 Morris Sweatt,
Attorneys for Appellant.

Columbia,

John

Holdridge,

Office of the Attorney General by Leslie S. Lee, Attorney
for Appellee.
EN BANC.
Opinion

McRAE, Justice, for the Court:

K 1. James Earnest Watts was found guilty of capital
murder and sentenced to death in the Circuit Court of
■Marion-County'on-Augusr9rl9967b>'_a'jury-imT5an'eled1rr
the Circuit Court of Lincoln County. He now appeals to
WE5TLAW

this Court, raising twenty assignments of error. Most of
the issues he raises are procedurally barred or otherwise
waived. We find that the circuit court failed to properly
instruct the jury regarding the three sentencing options
available in capital murder cases pursuant to
I* Miss.Code Ann. § 97-3-21(1994), and therefore

I.
1 2. The semi-nude body of ten-year-old Vanessa Nicole
Lumpkin was found stuffed in the roots of a tree along a
creek bank in Columbia, Mississippi around noon on
December 20, 1993. Alex Fairley discovered the body
while taking a short cut home from the nearby Hendricks
Street Apartments, known as “the projects.” He ran back
to the apartments, showed his friends what he had seen,
and Ruby Lewis called the police. Just a few minutes
earlier, police had received a report that the child was
missing.
3. Officers Tim Singley and Doug Brewton of the
Columbia Police Department were the first to arrive at the
scene. They immediately roped off the area around the
body. Detective Carroll Bryant, along with Detective
James Carney, next arrived. Detective Bryant indicated
that the ground was scuffled, but there was nothing from
which a footprint could be cast. There was very little
blood on or around the body. A little green shirt that the
child had been wearing when she went to bed the night
before was found about thirty yards away, west of the
projects and the creek, near the Rest Haven Cemetery.
U 4. Anthony Lumpkin identified his daughter’s body at
the scene. Marion County Coroner Norma Williamson
took measures to protect the body from contamination,
wrapping it in a sheet before she moved it. Rigor mortis
had set in. Both Williamson and Mississippi State
Highway Patrol Crime Scene Specialist Don Sumrall
indicated that there was a bloody discharge in the genital
and rectal areas. Based on the vaginal drainage,
Williamson determined that the child appeared to have
been sexually abused. She observed marks on the child’s
neck and what appeared to be ligature marks on her
WTfstsr_There-was_an-abrasion~on_the_righl side of her
chin, and blood on her tongue where she had bitten it.

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

7

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 8 of 30 PagelD #: 81

Watts v. State, 733 So.2d 214 (1999)

H 5. State Medical Examiner, Dr. Emily Ward, performed
an autopsy on the child. Cause of death was found to be
cardiorespiratory arrest due to strangulation, air embolism
and a perineal laceration. Based on an external
examination, Dr. Ward initially had thought the cause of
death was strangulation, based on linear abrasions on the
neck and petechial hemorrhages on the eyelids. However,
an *219 internal examination revealed that bubbles in the
arteries of her heart had caused a fatal air embolism.
Tracing the path of bubbles in the bloodstream, Dr. Ward
determined that a tear in the vaginal wall was the source
of the embolism. Bruising in the perineal area indicated
that penetration occurred while the child was still alive.
Dr. Ward, however, was unable to determine whether
penetration had involved a penis or some other object.
She explained that there was very little blood because the
child would not have lived long after the vaginal tear
She confirmed Coroner Williamson’s
occurred.
observation that the injuries on the child’s wrists were
caused by some binding.
T[ 6. Vanessa Nicole Lumpkin’s grandfather, Joe
Geeseton, had died at the VA Hospital in Jackson on
December 19, 1993. Nicole, along with many other
family members and friends, was staying with her
grandmother, Ruthelle Geeseton, who lived just around
the comer from the Lumpkins. Pauletta Baxter, a close
friend of the family who was Watts’ estranged girlfriend
and mother of his child, had been staying at the Geeseton
house because of problems she was having with him. She
put Nicole, along with her daughter, Victoria, to bed
between midnight and 1:00 a.m. in the back bedroom at
the Geeseton house. Mrs. Geeseton awakened at 4:00 a.m.
She testified that when she checked on the little girls, she
noticed that the closet light, kept on for Baxter’s and
Watts’ daughter, Victoria, was not on and that Nicole
wasn’t there, but assumed that she had gone home with
her parents. Baxter, too, testified that everyone at the
Geeseton house assumed that the child was at the
Lumpkins’ house. The Lumpkins thought she was still
asleep at her grandmother’s house, since she had been up
very late the night before and Gwen Geeseton Lumpkin
had left her there when she went home around 1:30 a.m.
Anthony Lumpkin stated that when the child stayed at her
grandparents, she usually awakened early and walked
home, so she had not been missed there. Apparently, no
one saw her leave the house. After Lumpkin called the
Geeseton house, and it was determined that she was not at
either house, Pauletta Baxter called the police to report
the child missing.
K 7. Anthony Lumpkin suggested to authorities that they
'question Watts because of The way he watchedThe child"
YVESTLAW

when she danced and because he had seen Watts riding a
bicycle that recently had been stolen from her. Detective
Bryant testified that they interviewed several other people
in addition to Watts, but never came up with any other
suspects. David McDaniel, an investigator with the
Columbia Police Department, obtained consent from
Watts’ mother to search Watts’ room at her house. There
they found the multi-colored jacket Watts reportedly had
been wearing the evening before and which his mother
identified as his, as well as some tennis shoes, a towel and
a pillow case. Noting that there had been some rain in the
early morning hours of December 20, McDaniel testified
that the jacket was still damp.
K 8. Willy Carter testified that he had picked Watts up at
his house and dropped him off at Hendricks Street, near
“the projects” at around midnight and did not see him
again until 1:00 or 1:30 p.m. the next day. He stated that it
was drizzling and rainy at the time. Catherine Bullock
heard Watts “bamming” on the door of her neighbor in
“the projects,” Pauletta Baxter, at around 12:00 or 12:30
a.m. He was wearing a multi-colored patchwork jacket.
She testified that he was acting strange that night, but
stayed around for awhile with a group of people who were
drinking and shooting off fireworks. He wanted to talk
with her about his relationship with Baxter. When he
asked her where Baxter was, she told him that she was at
the Geeseton’s. She testified that he came back about two
hours later, stating:
Squirrel left. And when he came back, he was gone I
say about two hours. He came back and he said,
“Michelle,” he *220 said, “I done something.” I said,
“What?” And he said, “I done something.” He said,
“And I need to tell somebody.” I said, “Well, what
have you did?” But he never told me. And he told me
he was about to go home. And at that time Squirrel
didn’t have on the same clothes that he had on when he
left.
He was no longer wearing the multi-colored jacket, and
instead was wearing a T-shirt and some kind of jogging
pants.
H 9. Tyrone Alexander had noticed Watts standing around
the apartments that night, “looking kind of strange.”
Watts’ second cousin, Travis Smith, likewise placed him
at the projects, near Building D, after midnight, noting
that Watts was wearing a multi-colored jacket he hadn’t
seen before.
K 10. Watts was picked up for questioning by police on
December 20th. He was questioned by Officer Sumrall
—and—consented—to~having—his—clothing—examined—for
evidence. He was wearing stained black shorts, as well as

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

8

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 9 of 30 PagelD #: 82

Watts v. State, 733 So.2d 214 (1999)

a T-shirt, briefs, socks, sweat pants, sweat shirt, a regular
shirt and some overalls. Sumrall did not notice whether
any of the clothing touched the floor when Watts removed
it. Watts put his underwear in a bag himself. He handed
each of the other items as he removed them to Sumrall,
who put them in the bags. Sumrall wore gloves while the
evidence was being collected.

Ti 12. Watts was indicted by a grand jury in Marion
County on April 19, 1994 for the *221 killing of Vanessa
Nicole Lumpkin, a female child under the age of twelve
years old, while in the commission of a sexual battery in
violation of
Miss.Code Ann. § 97-3-19(2)(e)( 1994).
After Watts was granted three motions for continuances,
his trial was scheduled for August 29, 1995. A mistrial
was declared, however, when the venire panel was
exhausted before a jury was selected. Trial was reset for
March 4, 1996. At that point, Watts was granted still
another motion for a continuance, arising from the
defense’s ore terms motion to quash the venire panel. As
the circuit court further stated in his written opinion:

f 11. At the Mississippi State Crime Laboratory, Debbie
Haller examined and tested Watts’ clothing for blood,
seminal fluid, hair, fibers and any other identifying
material. Blood stains were identified on the back of the
jacket. Stains on the inside front of Watt undershorts, a
few inches below the left side of the waistband, tested
positive for blood with the possible presence of feces.1
Haller further testified at length about the precautions
taken in the laboratory to prevent contamination of
evidence being readied for DNA testing. Samples
collected from Watts and the victim, as well as samples of
stained areas from Watts’ jacket and undershorts, were
sent to GenTest Laboratories in Metairie, Louisiana for
DNA testing. The lab used the polymerase chain reaction
(PCR) method of amplifying DNA to type genetic
material derived from the evidence submitted. From the
test results, it was concluded that the victim could not be
excluded as the source of the DNA obtained from the
blood stain samples taken from Watts’ jacket. Watts,
however, was excluded as a possible “donor” of the stains
on the jacket. As to the samples taken from blood stains
on his undershorts, the results indicated a mixture of two
types, one consistent with the genetic markers identified
as belonging to Watts, and the other, consistent with those
of the victim. Based on the product rule of determining
the statistical probability “that another individual picked
at random off the street could also produce the ten-test
stain that was found on the jacket,” the State’s expert
witness, Dr. Martin Tracey, calculated that one in a little
over eight hundred thousand African Americans would
match. Using the more conservative ceiling approach to
calculating population frequency, he previously had
calculated the likelihood of a match at one in forty
thousand. Dr. Sinha, president of GenTest Labs, based on
a testing for ten different genetic markers and applying
the ceiling principle, calculated that there was a one in
876,000 chance in the black population group of finding
another individual whose genetic profile would match,
and a one in twelve million chance in the white
population.

H 13. Trial was held on August 5-9, 1996. A jury was
impaneled in Lincoln County and trial was held in Marion
County. At the close of the State’s case, Watts’ motion for
a directed verdict was denied by the circuit court. The
jury found Watts guilty of capital murder.

II.

H 14. During the sentencing phase of the trial, the jury
heard only the testimony of Watts’ mother, who briefly
testified that he was raised by her and his grandmother,
that he was the best of her eight children, and that he had
'been-pnpxitaT-in-high-sch'oD’tt-having been voted by his
classmates as “best dressed” and receiving a standing

WESTLAW

On February 9, 1996, it was discovered that Lincoln
County had exhausted the potential jurors in the jury
box and on February 12, 1996, Delta Computer
Company incorrectly advised the Lincoln County
Circuit Clerk to fill the jury box with the first seven
hundred (700) names from the jury wheel, and the
venire panel for this case was chosen from those seven
hundred (700) names.
That the venire panel so drawn from the jury box was
comprised only with persons with the name beginning
“A”, “B”, or “C”. That the State and the Defense is
entitled to a venire that is a random selection of jurors
in Lincoln County and the jury wheel should have
keyed in a number to ensure enough jurors to make the
jury box show a random sample.
That the State and the defense agree that the
methodology employed systematically excluded any
qualified electors whose name began with the letters
“E” through “Z”, and that selection of this panel would
have been reversible error.
The circuit court found that the delay in the proceedings
was not chargeable to either party for purposes of the
speedy trial rule. Trial, originally re-slated for June 24,
1996, was reset for August 5, 1996, because of a
scheduling conflict with the defendant’s DNA expert.

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

9

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/2110 of 30 PagelD #: 83

Watts v. State, 733 So.2d 214 (1999)

ovation at his graduation. The jury then unanimously
found that at the time of the commission of the capital
murder:
1. That the defendant actually killed Vanessa Nicole
Lumpkin;
4. That the defendant contemplated that lethal force
would be employed.
The jury unanimously found further that the aggravating
circumstances of:
1. The Capital Murder was committed while the
defendant was engaged in the Commission of the
Crime of Sexual Battery or in an attempt to Commit the
Crime of Sexual Battery; [and]
2. The Capital Murder was especially heinous,
atrocious or cruel;
are sufficient to impose the death penalty and that there
are insufficient mitigating circumstances to outweigh
the aggravating circumstances, and we further find
unanimously that the defendant should suffer death.
The circuit court entered an Order of Conviction on
August 9, 1996. Watts filed a motion for j.n.o.v., or in the
alternative, for a new trial, on August 28, 1996. The
motion was denied the same day. Aggrieved by his
conviction and sentence, Watts now raises twenty
assignments of error.

*222 III.

DISCUSSION OF THE LA W
I. WHETHER THE TRIAL COURT ERRED IN
OVERRULING DEFENDANT’S MOTION TO
PRECLUDE PCR EVIDENCE
m H 15. Watts presented only one witness at trial, DNA
expert Dr. Ronald Acton, whom he called upon to refute
the DNA evidence introduced by the State. In this appeal,
as well, Watts largely predicates his assertion that he was
deprived of his constitutional rights upon various issues
"an
He first contends that the polymerase chain reaction
WESTLAW

(PCR) method of typing DNA evidence used by GenTest
Labs to test the evidence in this case has not been
accepted by this Court as a generally accepted forensic
technique capable of producing reliable results, and thus,
the circuit court should not have admitted the evidence.
1 16. Watts fded a motion in limine to preclude evidence
of DNA testing based on the PCR method of genetic
typing. At the hearing on the motion, the circuit court
heard extensive testimony by Dr. Acton as well as by Dr.
Sinha, who operates the laboratory where the tests were
made and who analyzed the evidence in this case. Based
on that testimony, using the analysis set out in ^ Polk v.
State, 612 So.2d 381 (Miss.1992), the circuit court found
that evidence of DNA testing, regardless of whether the
PCR or RFLP method was employed, was admissible.
K 17. This Court first found the Restriction Fragment
Length Polymorphism (RFLP) method of typing DNA
evidence to be admissible in Polk.
K 18. Watts emphasizes the third prong of the Polk test,
looking for error in the preparation of the DNA samples
used in his case. His expert, Dr. Acton, focused on the
susceptibility to contamination inherent in the PCR
amplification process. Dr. Sinha and Pat Wojtikieiac,
however, explained the controls in the laboratory process
which are designed to identify—and minimize any
instances of contamination. Deborah Haller further
demonstrated the precautions taken by the State Crime
Lab to safeguard against contamination of the samples
prepared for the genetic laboratory.
H 19. Watts, however, attempts to bolster his case by
misconstruing evidence and mis-characterizing witness
testimony in the record, speculating where contamination
might have occurred. He suggests that Don Sumrall could
have contaminated the evidence by not wearing protective
coverings on his shoes while “traips[ing] about the crime
scene” since the sort of rectal and vaginal injuries the
child suffered “would have caused significant bleeding.”
Crime scene pictures show only a small trickle of blood
coming from the perineal area; witness testimony
indicated there was little blood at the scene and the State
Medical Examiner testified that because death would have
occurred swiftly after the injury, there would have been
very little bleeding.
H 20. Watts further mis-characterizes Sumrall’s testimony
about Watts’ removal of his clothes, stating that “He
[Sumrall] further conceded that the undershorts might
have dropped to and touched the floor of the small office
during the collection.” Rather, when asked, Sumrall
testified that he didn’t notice whether Watts’ undershorts

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

EXHIBIT B

10

Case: 3:20-cv-00139-NBB-JMV Doc #: 9-2 Filed: 02/22/21 11 of 30 PagelD #: 84
Watts v. State, 733 So.2d 214 (1999)

touched the floor before he put them in the bag.
21. He further suggests that the victim’s blood may have
been present on his jacket because Sam Howell, Chief of
Toxicology at the Mississippi Crime Lab, assisted Dr.
Ward with the autopsy one day and the next, collected
three items of evidence, including the jacket! While this
raises matters of Mr. Howell’s personal hygiene that were
not made part of the record, his contention is also refuted
by Deborah Haller’s testimony regarding the rigorous
protocol followed to avoid contamination in the crime lab.
*223 H 22. This Court has found that PCR testing of DNA
samples produces reliable results in a forensic setting. The
record contains no evidence of error in the process of
collecting and testing the DNA evidence in this case. We
therefore do not find the circuit court to be in error for
denying Watts’ motion to suppress the evidence.
II. WHETHER THE TRIAL COURT ERRED IN
OVERRULING DEFENDANT’S MOTION TO
STRIKE THE PROSECUTION’S DNA PCR
EVIDENCE
PERTAINING
TO
THE
APPELLANT’S UNDERSHORTS
P1 T| 23. Watts asserts that circuit court erred in overruling
his motion to strike the State’s PCR evidence regarding
stains found on the inside of his undershorts. At trial,
evidence was presented that the undershorts Watts was
wearing when he was taken in for questioning contained a
mixture of DNA evidence that was consistent both with
his genetic profile and that of the victim. Although
statistical data was introduced about the DNA evidence
which was identified as consistent with the victim’s on
Watts’ jacket, no corresponding statistical data on the
mixed sample found on the inside of Watts’ underwear
was offered by the State. While the circuit judge found
that statistical data had probative value, he also found that
because of the mixed sample on the shorts, Dr. Tracey
could not generate any statistical data with the same
certainty that he was able to achieve on the jacket. He
further ruled that even without statistical data, evidence of
DNA samples taken from Watts’ undershorts still had
probative value and thus denied the defendant’s motion to
strike. Based on
Hull v. State, 687 So.2d 708
(Miss. 1996), Watts now asserts that it was error to
introduce the DNA evidence without any population
frequency estimates on the mixed sample since it was
introduced on the jacket. He raises this claim despite
testimony by his own expert witness, Dr. Ronald Acton,
that any evidence of mixed DNA samples needs to be
viewed with great caution.
l31 K 24. This Court has held that “where the trial court
WESTLAW

finds that evidence of a DNA match is admissible as
relevant, the court should also allow scientific statistical
evidence which shows the frequency with which the
match might occur in the given population.”
Hull, 687
So.2d at 728. In P Crawford v. State, 716 So.2d 1028
(Miss. 1998), we found that it was “proper” for an expert
to present statistical evidence as to the frequency with
which a DNA match might occur within the general
population.
Crawford, 716 So.2d at 1046. Thus, where
such evidence is offered in conjunction with evidence of a
DNA match made on the basis of either PCR or RJFLP
analysis, the circuit court should allow its introduction.
However, that does not mean that it is an abuse of
discretion for the circuit court to allow evidence of DNA
matching without also requiring statistical analysis of the
match. See 1* Polk v. State, 612 So.2d 381, 390
(Miss. 1992)(where trial court allowed evidence of a DNA
match but disallowed statistical analysis, this Court found
expert testimony regarding DNA match admissible, but
did not address admissibility of statistics or trial court’s
refusal to admit same). Indeed, in Polk, it was suggested
that evidence that tends to go to the matter of the
reliability of DNA testing goes only to the credibility of
the evidence offered. 1? Polk, 612 So.2d at 390 n. 2, 393.
T| 25. Whether population frequency statistics are really
helpful to the jury was discussed recently in Hepner v.
State, 966 S.W.2d 153 (Tex.Ct.App.1998). There, the
Texas court addressed the defendant’s claim that he was
unfairly prejudiced by the defense’s introduction of the
same statistical data Watts now claims should have been
admitted. While the Court found that the probative value
of the statistical evidence outweighed its prejudicial
value, it noted the testimony of Dr. Jonathan *224
Koehler,2 which highlighted the relative insignificance of
the population statistical data in comparison to laboratory
error rates, which usually are not presented to the jury.
Hepner, 966 S.W.2d at 157-58.
•[ 26. Watts appears to want to have his cake and eat it,
too, with regard to the DNA statistical evidence; While in
Issue III, infra, he contends that statistical evidence
should have provided along with the DNA evidence taken
from his undershorts, he asserts in this assignment of error
that statistical evidence regarding DNA samples taken
from his jacket should not have been admitted. His own
expert witness cautioned against extensive reliance upon
mixed DNA samples and noted the variety of
combinations that could be derived just from the material
found on Watts’ undershorts. Given that evidence, one
would have to question the-reliability of any statistical
.eyidenc_e_thatjaightJb.e_dqrijs.d_thetefrx!m._Inde.ed,_tMs;
Court’s decision in Crawford calls into question the

© 2021 Thomson Reuters. No claim to original U S. Government Works.

EXHIBIT B

11

